No. 20-1163
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

GLOUCESTER COUNTY SCHOOL BOARD, Petitioner,
v.
GAVIN GRIMM, Respondent.
____________________
On Petition for a Writ of Certiorari
to the U.S. Court of Appeals for the Fourth Circuit
____________________
Brief Amicus Curiae of
Public Advocate of the United States,
Eagle Forum, Eagle Forum Foundation,
Recover America Now, California
Constitutional Rights Foundation, One Nation
Under God Foundation, Conservative Legal
Defense and Education Fund, I Belong Amen
Ministries, Center for Morality, and
Restoring Liberty Action Committee in
Support of Petitioner
____________________
JAMES N. CLYMER
Lancaster, PA
J. MARK BREWER
Houston, TX
GARY G. KREEP
Ramona, CA
STEVEN C. BAILEY
Ramona, CA

WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record
March 26, 2021

JOSEPH W. MILLER
Fairbanks, AK

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

THE FOURTH CIRCUIT’S ANALYSES OF TITLE IX
AND THE EQUAL PROTECTION CLAUSE ARE
FLAWED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
A. The Fourth Circuit Misapplied Title IX
and the Equal Protection Clause . . . . . . . . 5
B. The Fourth Circuit’s Decision Violates
Established Precedents. . . . . . . . . . . . . . . . 7
C. Who Is Similarly Situated When It
Comes to Sex-Segregated Facilities? . . . . . 9

II. SPECIAL RIGHTS FOR TRANSGENDER PERSONS
CAN BEST BE ASSERTED, AND CANNOT
EFFECTIVELY BE OPPOSED, USING THE
FOURTH CIRCUIT’S “NEWSPEAK”. . . . . . . . . . . . 10
A. Addressing Transgenderism in Plain
Speak . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
B. Addressing Transgenderism Using
Newspeak . . . . . . . . . . . . . . . . . . . . . . . . . 17
C. Judicial Law Making . . . . . . . . . . . . . . . . 19

ii
III. THE FOURTH CIRCUIT’S DECISION OPENED
THE DOOR TO SOCIETAL CHAOS AND HARM TO
YOUNG PEOPLE . . . . . . . . . . . . . . . . . . . . . . . . . 20
A. Sex-Rights Litigation Has Proceeded
Down a Slippery Slope . . . . . . . . . . . . . . . 20
B. Sex Change Therapies Are Highly
Dangerous . . . . . . . . . . . . . . . . . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iii
TABLE OF AUTHORITIES

Page

HOLY BIBLE
Genesis 1:26 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Genesis 2:24 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Genesis 5:2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
Psalm 139:13-14, 16 . . . . . . . . . . . . . . . . . . . . . . . .
Matthew 19:4 . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

14
21
13
15
13

U.S. CONSTITUTION
Fourteenth Amendment. . . . . . . . . . . . . . . . 3, passim
STATUTES
20 U.S.C. §§ 1681-88 (Title IX) . . . . . . . . . . 3, passim
REGULATIONS
34 C.F.R. § 106.33 . . . . . . . . . . . . . . . . . . . . . . . . . . 5
CASES
Bell v. Tavistock, High Court, Point 151
(Jan. 12, 2020) . . . . . . . . . . . . . . . . . . . . 23,24,26
Bostock v. Clayton County,
140 S. Ct. 1731 (2020) . . . . . . . . . . . . . . . . . . . . 5
Bowers v. Hardwick, 478 U.S. 186 (1986). . . . . . . 21
Lawrence v. Texas, 539 U.S. 558 (2003) . . . . . . . . 21
Obergefell v. Hodges, 576 U.S. 644 (2015) . . . . . . 21
Roe v. Wade, 410 U.S. 113 (1973) . . . . . . . . . . . . . 21
Tuan Anh Nguyen v. INS, 533 U.S. 53 (2001) . . . 8,9
United States v. Virginia, 518 U.S. 515 (1996). . . . 8
MISCELLANEOUS
American Psychiatric Association, “Gender
Dysphoria Diagnosis” . . . . . . . . . . . . . . . . . . . 17

iv
D. Arthur, “A Former Transgender Opposes
Transgender Rights,” (Mar. 26, 2021). . . . . . .
E. Barry, “A Massachusetts City Decides to
Recognize Polyamorous Relationships,” New
York Times (July 1, 2020) . . . . . . . . . . . . . . . .
Blackstone, IV Commentaries on the Laws of
England . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .
J. Brooks, “The Controversial Research on
‘Desistance’ in Transgender Youth,
KQED (May 23, 2018) . . . . . . . . . . . . . . . . . . .
J. Campellone, M.D. & R.K. Turley, RN,
“Understanding the Teen Brain,” Univ.
of Rochester Medical Center
Health Encyclopedia . . . . . . . . . . . . . . . . . . . .
Catholic Medical Association, Letter co-signed
by American College of Pediatricians and
Christian Medical & Dental Association
(Mar. 17, 2021). . . . . . . . . . . . . . . . . . . . . . . . .
M. Stanton Evans, The Theme Is Freedom
(Regnery Publishing: 1994) . . . . . . . . . . . . . . .
“Father faces arrest and jail time for trying to
stop doctors from transitioning his middle
school daughter to a boy,” The Gateway
Pundit (Mar. 13, 2021). . . . . . . . . . . . . . . . . . .
F. Kao and A. Jones, “We Must Fight the
Sexualization of Children by Adults,”
Heritage Foundation (Oct. 5, 2019) . . . . . . . .
B. Lang, “Queer Polyamorous Love Story ‘Ma
Belle, My Beauty’ Sells to Good Deed
(Exclusive),” Variety (Feb. 18, 2021) . . . . . . . .
J. Law, Sex Appealed: Was the U.S. Supreme
Court Fooled? (Eakin Press: 2005) . . . . . . . . .
N. McCorvey, I Am Roe (HarperCollins: 1994) . . .

11
22
20
14

14

25
23

15
16
22
21
21

v
G. Orwell, “Politics and the English Language,”
(1946) . . . . . . . . . . . . . . . . . . . . . . . . . . 11, 12, 19
B. Palmer, “How many kids are sexually abused
by their Teachers: Probably millions,”
Slate (Feb. 8, 2012) . . . . . . . . . . . . . . . . . . . . . 16
S. Saint Thomas and T. Andrews, “12 GenderRelated Terms You Should Know and
Understand: Consider this your cheat sheet,”
Cosmopolitan (Oct. 29, 2020) . . . . . . . . . . . . . 18
L. Sax, “How common is intersex? A response to
Anne Fausto-Sterling,” The Journal of
Sex Research (Aug. 2002) . . . . . . . . . . . . . . . . 13
E. Sheff, Ph.D., “Polyamory Advocacy: Activists
and Organizations Dedicated to Advocating
for Polyamory,” Psychology Today
(Mar. 21, 2016). . . . . . . . . . . . . . . . . . . . . . . . . 22
A. Shrier, Irreversible Damage: The Transgender
Craze Seducing Our Daughters
(Regnery Publishing: 2020) . . . . . . . . 24, 25, 26
J. Van Maren, “World-renowned child psychiatrist
calls trans treatments ‘possibly one of the
greatest scandals in medical history,’” The
Bridgehead (Sept. 25, 2019) . . . . . . . . . . . . . . 25
“When Do Children Feel Modesty?”
You Are Mom (Mar. 15, 2019) . . . . . . . . . . . . . 16
“Who We Are,” NAMBLA (2011) . . . . . . . . . . . . . . 22
T.M. Wizemann, edt., “Every cell has a sex,”
Exploring the Biological Contributions to Human
Health: Does Sex Matter? (National Academies
Press: 2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

INTEREST OF THE AMICI CURIAE1
Public Advocate of the United States and Eagle
Forum are nonprofit social welfare organizations,
exempt from federal income tax under Internal
Revenue Code (“IRC”) § 501(c)(4). Eagle Forum
Foundation, Recover America Now, California
Constitutional Rights Foundation, One Nation Under
God Foundation, and Conservative Legal Defense and
Education Fund are nonprofit educational and legal
organizations, exempt from federal income tax under
IRC § 501(c)(3). I Belong Amen Ministries is a
ministry headed by David Arthur, a former
homosexual and former transgender person. Center
for Morality and Restoring Liberty Action Committee
are educational organizations. Amici organizations
were established, inter alia, for the purpose of
participating in the public policy process, including
conducting research, and informing and educating the
public on the proper construction of state and federal
constitutions, as well as statutes related to the rights
of citizens, and questions related to human and civil
rights secured by law. Some of these amici also filed
amicus briefs earlier in this case:
• G.G. v. Gloucester County School Board, No. 152056, Fourth Circuit, Brief Amicus Curiae in

1

It is hereby certified that counsel for the parties have consented
to the filing of this brief; that counsel of record for all parties
received notice of the intention to file this brief at least 10 days
prior to its filing; that no counsel for a party authored this brief in
whole or in part; and that no person other than these amici curiae,
their members, or their counsel made a monetary contribution to
its preparation or submission.

2
Support of Petition for Rehearing En Banc (May
10, 2016);
• Gloucester County School Board v. G.G., No. 16273, U.S. Supreme Court, Brief Amicus Curiae
in Support of Petitioner (January 10, 2017); and
• G.G. v. Gloucester County School Board, No. 152056, Fourth Circuit, Brief Amicus Curiae in
Support of Affirmance (May 15, 2017).
In addition, some of these amici have filed amicus
briefs in other similar cases, including:
• EEOC v. Harris Funeral Homes, No. 16-2424,
Sixth Circuit, Brief Amicus Curiae in Support of
Affirmance (May 24, 2017);
• Zarda v. Altitude Express, No. 15-3775, Second
Circuit, Brief Amicus Curiae in Support of
Affirmance (July 26, 2017);
• Altitude Express v. Zarda, No. 17-1623, U.S.
Supreme Court (Petition Stage), Brief Amicus
Curiae in Support of Petitioners (July 2, 2018);
• Harris Funeral Homes v. EEOC, No. 18-107,
U.S. Supreme Court (Petition Stage), Brief
Amicus Curiae in Support of Petitioner (August
23, 2018);
• Harris Funeral Homes v. EEOC, No. 18-107,
U.S. Supreme Court (Merits Stage), Brief
Amicus Curiae in Support of Petitioner (August
23, 2019); and
• Bostock v. Clayton County & Altitude Express
v. Zarda, Nos. 17-1618 & 17-1623, U.S. Supreme
Court (Merits Stage), Brief Amicus Curiae in
Support of the Employers (August 23, 2019).

3
SUMMARY OF ARGUMENT
The Fourth Circuit’s opinion is inconsistent with
both Title IX and the Equal Protection Clause. Judge
Niemeyer’s dissent exposed the key flaws in the
majority opinion. First, the word “sex” in Title IX
clearly referred to physiological distinctions between
males and females. Second, the exception in Title IX
allowing “separate living facilities for the different
sexes” clearly was based on biological indicators.
Third, Grimm made no challenge to constitutionality
of the Title IX exception allowing separate bathrooms
by biological sex. Fourth, Grimm never established
that biological females (who were identified as male)
were similarly situated to (cisgender) biological males,
so as to trigger the Equal Protection Clause. The
Fourth Circuit’s crushing of the eternal, scientific, and
fundamental difference between males and females
violated the principles set out in at least two prior
decisions of this Court.
The court below revealed its bias and favoritism
for plaintiff-respondent Grimm and hostility to the
School Board and all those who defended its decisions
to accommodate Grimm in other ways than were
demanded. The Court below immediately adopted the
terminology of referring to biological female Grimm
with male pronouns, indicating its pre-supposition
that a person can change sexes. It referred to
biological sex as “assigned sex” as if it existed only
arbitrarily in the mind of a physician. For the
statutory term “sex” it employed the word “gender,”
which unlike “sex,” has no fixed meaning. It also
exhibited religious animus, describing a former lesbian

4
who left that lifestyle when she became a Christian by
including that among “ugly” comments opposing
special rights to Grimm.
As Judge Niemeyer
explained, the panel opinion revealed that it was
written “to effect policy rather than simply apply law.”
As the Petition stressed, in previously granting
certiorari, this Court already determined that the Title
IX issue presented in this case warrants review. In
addition, the consequences of allowing the Fourth
Circuit decision to stand will have far ranging
consequences. Prior decisions in this area are not just
resolutions of “cases” but rather more akin to a court
writing a law — here a law which will require school
boards to allow boys into the girls’ showers based on
subjective, unchallengeable “feelings.” Also, each such
decision in the past has been the stepping stone to
more claims for special sex-based rights. It would be
difficult to find an area of the law where the “slippery
slope” argument has more application. Additionally,
the Fourth Circuit detailed all of the counseling and
sex-change therapies given to Grimm, but not once
stopped to consider that those could be injurious to
children. There now exists a substantial body of
medical evidence that cross-sex therapies are
dangerous, irreversible, and should never be used for
minors. The enthusiasm exuded by the court below for
Grimm’s journey from girl to boy blinded the court to
the dangers of taking that impossible journey.

5
ARGUMENT
I.

THE FOURTH CIRCUIT’S ANALYSES OF
TITLE IX AND THE EQUAL PROTECTION
CLAUSE ARE FLAWED.
A. The Fourth Circuit Misapplied Title IX
and the Equal Protection Clause.

In dissent, Judge Niemeyer unraveled the legal
basis for the majority opinion below. First, he
addressed Grimm’s claim that denying her access to
the boys’ room violated the Title IX provision that no
person “on the basis of sex, be excluded from
participation in, be denied the benefits of, or be
subjected to discrimination” under covered programs.
He made clear that the meaning of the word “sex” in
1972, when Title IX was enacted, was in reference to
“the physiological distinctions between males and
females.” Grimm v. Gloucester County School Board,
972 F.3d 586, 632 (4th Cir. 2020) (Niemeyer, J.,
dissenting).
Judge Niemeyer’s view was not
countermanded by this Court’s decision in Bostock v.
Clayton County, 140 S. Ct. 1731 (2020). There, this
Court made clear that it was not deciding the meaning
of “sex.” Id. at 1739.
Judge Niemeyer addressed the exception built into
Title IX’s prohibition against sex discrimination by
which Congress authorized “‘maintaining separate
living facilities for the different sexes,’” which
regulations make clear included “‘separate toilet,
locker room, and shower facilities.’” 20 U.S.C. § 1686;
34 C.F.R. § 106.33. He explained that the purpose of

6
the exception was grounded in Congress’s
understandings that there were “biological indicators”
that distinguished the sexes, and therefore Congress
was addressing the difference between biological males
and biological females. Grimm at 632 (Niemeyer, J.,
dissenting).
It is undisputed that Grimm is a biological female.
Grimm never challenged Title IX’s authorization of
“separation of restrooms — indeed, he seeks to use the
male restrooms so separated from female restrooms”
even though granting access to the boys’ room “would
allow him to use restrooms contrary to the basis for
separation.” Id. at 634 (emphasis added).
With respect to the Equal Protection claim, Judge
Niemeyer explained that Grimm never demonstrated
that biological males were similarly situated to
biological females. See Subsection C, infra. And,
Grimm never argued “that Title IX violates the Equal
Protection Clause in allowing educational institutions
to separate restrooms on the basis of sex.” Id. at 635.
Judge Niemeyer concluded that “[i]n light of this
rationale, Grimm cannot claim that he was
discriminated against when he was denied access to
the male restrooms because he was not, in fact,
similarly situated to the biologically male students
who used those restrooms.” Grimm at 636.

7
B. The Fourth Circuit’s Decision Violates
Established Precedents.
Judge Niemeyer’s dissent also noted various
inconsistencies between the majority opinion and this
Court’s and Fourth Circuit precedents:
both the Supreme Court and [the Fourth
Circuit] have previously indicated that it is
this type of physiological privacy concern
[separate restrooms, locker rooms, and
showers] that has led to the establishment of
such sex-separated facilities. See United
States v. Virginia at 550 n.19 (recognizing that
“[p]hysical differences between men and
women” are “enduring” and render “the two
sexes ... not fungible” and acknowledging,
when ordering an all-male Virginia college to
admit female students, that such a remedy
“would undoubtedly require alterations
necessary to afford members of each sex
privacy from the other sex;” Faulkner v. Jones,
10 F.3d 226, 232 (4th Cir. 1993) (noting
“society’s undisputed approval of separate
public rest rooms for men and women based on
privacy concerns”). [Grimm at 634 (Niemeyer,
J., dissenting) (cleaned up).]
The school board’s petition points out that this
Court has appropriately recognized that the
distinctions between male and female do not prohibit
providing different, but equivalent, facilities for the
two sexes: “one distinction between the sexes that the
Equal Protection Clause allows is the designation of

8
spaces ‘necessary to afford members of each sex
privacy from the other sex in living arrangements.’”
Pet. Cert. at 29-30. Although United States v.
Virginia, 518 U.S. 515 (1996), cited by Petitioner, did
not involve a challenge to sex-segregated facilities, it
did acknowledge their permissibility. Similarly, this
Court in that decision’s footnote 19 also noted that the
Military, Naval, and Air Force Academies permit
“minimum essential adjustments” to the physical
standards required for female cadets “because of
physiological differences between male and female
individuals.” United States v. Virginia at 550 n.19
(quoting 10 U.S.C. § 4342).
Further, in Tuan Anh Nguyen v. INS, 533 U.S. 53
(2001), this Court acknowledged differential treatment
of federal immigration laws with respect to U.S.
citizenship to a child born outside of the United States
to unwed parents. If the mother is a U.S. citizen, the
child automatically acquires U.S. citizenship. But if
only the father is a U.S. citizen, the Immigration and
Nationality Act requires additional criteria to be met
for the child to inherit that citizenship. Justice
Kennedy reasonably concluded:
To fail to acknowledge even our most basic
biological differences ... risks making the
guarantee of equal protection superficial, and
so disserving it. Mechanistic classification of
all our differences as stereotypes would
operate to obscure those misconceptions
and prejudices that are real.
The
distinction embodied in the statutory scheme
here at issue is not marked by misconception

9
and prejudice, nor does it show disrespect for
either class. [Nguyen at 73 (emphasis added).]
The Fourth Circuit’s decision, if allowed to stand,
could lead to distortion of federal laws, such as the
INA provisions at issue in Nguyen, whereby a
transgender man who is a citizen could give birth
abroad, and the child would not receive the
streamlined citizenship provisions for a citizen mother.
C. Who Is Similarly Situated When It Comes
to Sex-Segregated Facilities?
The Fourth Circuit ruled that a biological female
who self-identifies as a male is similarly situated in all
material respects to a cisgender biological male. If the
Fourth Circuit’s decision is allowed to stand, why
would the same logic not allow a white person to selfidentify as a (trans-racial) black person to claim Equal
Protection coverage, leaving Equal Protection
jurisprudence in a terrible mess? Then, Equal
Protection could be triggered by anyone who chooses to
self-identify into a protected class or a quasi-protected
class, merely based on subjective “feelings.”
Viewed another way, if transgender individuals
are considered to be differently situated from both
males and females, they should be provided their own
restroom comparable to what males and females are
separately provided. Then the claim of discrimination
disappears because that is the essence of what the
school board did when it created additional unisex,
single-person restrooms, providing additional privacy
for those who need or desire it.

10
The petition should be granted to reverse the lower
court’s decision because a school prohibiting a student
from using the restroom designated for the opposite
biological sex does not violate the Equal Protection
Clause or Title IX. Moreover, Title IX’s exception for
separate “living facilities” was never challenged.
II. SPECIAL RIGHTS FOR TRANSGENDER
PERSONS CAN BEST BE ASSERTED, AND
CANNOT EFFECTIVELY BE OPPOSED,
U S I N G THE FO U R TH C I R C U I T ’ S ’
“NEWSPEAK.”
The Fourth Circuit decision exuded favoritism for
Gavin Grimm on every page. It discussed every aspect
of her journey from girl to boy, with the court
describing its own decision to compel the School Board
to cater to her feelings as a “resounding” victory for
her. Grimm at 593. It adopted all of the terminology
of the Grimm briefs. Her female nature was only her
“assigned sex” or “birth assigned sex.” Id. at 593-94.
She suffered from “stigma.” Id. at 593. “[B]eing
transgender is natural and is not a choice.” Id. at 594.
She faced “unique challenges.” Id. at 597. The Court
accepted as reasonable that she felt “‘anxiety and
shame’” using the bathroom at the nurse’s office. Id.
at 598.
The parents who objected to her use of the boys’
room “vehemently opposed” allowing it. Id. at 599.
Among the “ugly” comments was that Grimm’s gender
was a “choice” as was the statement by a “former”
lesbian (with the court below putting the word former
in quotation marks as if to say that there is no such

11
person), that her lesbianism was an addiction from
which Jesus Christ set her free.2 Id. at 599. While
anything that Grimm “felt” was treated with care, the
personal religious testimony of the witness was treated
with animus. The court asserted transgenderism was
“not a psychiatric condition,” but at the same time,
reported that transgender persons are nine times more
likely to attempt suicide than the general population.
Id. at 594.
As Judge Niemeyer stated, the fact that the
majority opinion devoted over 20 pages to her
transgender status physically and psychology, revealed
“its effort to effect policy rather than simply apply
law.” Id. at 636-37 (Niemeyer, J., dissenting). When
court decisions are dominated by policy arguments, it
justifies an explanation of the other side of that
argument. And when a court decision is expressed in
a language that favors one side of the case, some
analysis is required.
In his novel 1984, George Orwell explained in a
fictionalized setting how changing the language
changes thinking. Orwell called this official language
of Oceania “Newspeak.” In his essay “Politics and the
English Language,” Orwell elaborated on this
technique, explaining “[I]f thought corrupts language,
language can also corrupt thought... This invasion of
one’s mind by ready-made phrases ... can only be
2

Amici herein, David Arthur, lived for two decades as a
homosexual and trans person and testifies that he was delivered
by his faith in Jesus Christ. See D. Arthur, “A Former
Transgender Opposes Transgender Rights,” (Mar. 26, 2021).

12
prevented if one is constantly on guard against them,
and every such phrase anaesthetizes a portion of one’s
brain.”
The Circuit’s opinion below refers to plaintiffappellee Gavin Grimm, who everyone concedes is a
biological female, by using the male pronouns “he” and
“him.” Thus, even before the first word of analysis,
and without any explanation, the court below accepts
the premise of the lawyers for Gavin Grimm that a
female should be referred to as a male. At that point,
the plaintiff is halfway home. (This amicus brief
resists Newspeak by using female pronouns to refer to
the once, now, and forever female respondent — Gavin
Grimm.)
Until very recently, it would be possible to address
the public policy problem presented in this case in
honest, direct, and realistic terms using words
according to their ordinary public meaning. Today,
language is being changed, as illustrated by the court
below, and such “plain speak” is no longer accepted.
Indeed, even to discuss the problem of transgender
persons in the way it would have been discussed just
a few years ago sounds jarring to the collective ears of
a woke culture. This is no accident. To illustrate the
point, consider the following two approaches: first,
how such a person would be viewed historically — and
in a way that millions of “politically incorrect”
Americans still view the issue; then, how changes in
language altered the lower court’s thinking and
decision-making.

13
A. Addressing Transgenderism in Plain
Speak.
Local school boards are responsible for the
education and safety of each student and they should
not be ordered by elitist judges (who often send their
children to private schools) to create dangerous and
sexualized environments in which students are to be
educated.
Every person is born a male or a female.3 Genesis
5:2; Matthew 19:4. A girl who identifies as a boy is not
a boy who was born into a girl’s body by mistake.
Sexual orientation may be a choice, but no one can
choose their sex — that was chosen for every person at
the moment of conception, not assigned by a doctor at
the moment of birth. It is binary. It is not arbitrary.
These are scientific facts that have been known
throughout millennia, worldwide. They are not
opinions.
A girl who doesn’t like to play with dolls is no less
a girl. Not everyone is the same, but we are all created

3

The tiny number of persons born with atypical sex
characteristics does not change the fact people are born male or
female. Sex is not just about anatomy. Every cell reflects the
difference between a male and a female. See T.M. Wizemann,
edt., “Every cell has a sex,” Exploring the Biological Contributions
to Human Health: Does Sex Matter? (National Academies Press:
2001). The percentage of intersex persons is estimated to be 0.018
percent, although advocates of transgender rights often use the
fraudulent estimate of 1.7 percent. See L. Sax, “How common is
intersex? A response to Anne Fausto-Sterling,” The Journal of Sex
Research (Aug. 2002).

14
in the “image” and “likeness” of God. Genesis 1:26.
Even if the opposite sex behavior is extreme, such a
person is probably just going through what has been
forever described as “a phase.” Many people had
confusion about sex while growing up. Studies of
transgender children have shown that anywhere from
65 to 94 percent eventually ceased to identify as
transgender.4 If the “orientation” persists, it may
require counseling to affirm that acting on what a
person “feels” at any time, particularly during
childhood, puberty, and adolescence, gives a person no
objective standard by which to lead their lives. There
are studies showing that the brain is not fully
developed until a person reaches the age of 25.
The rational part of a teen’s brain isn’t
fully developed and won’t be until age 25 or
so.
In fact, recent research has found that
adult and teen brains work differently. Adults
think with the prefrontal cortex, the brain’s
rational part. This is the part of the brain that
responds to situations with good judgment and
an awareness of long-term consequences.
Teens process information with the
amygdala. This is the emotional part.
[Teens] weren’t thinking as much as
they were feeling. [J. Campellone, M.D. &
R.K. Turley, RN (medical reviewers)
“Understanding the Teen Brain,” Univ. of

4

J. Brooks, “The Controversial Research on ‘Desistance’ in
Transgender Youth, KQED (May 23, 2018).

15
Rochester Medical Center Health Encyclopedia
(emphasis added).]
The role of parents, teachers, counselors is to urge
the child or teen to take a deep breath and stop
obsessing about themselves. Volunteer at a soup
kitchen. Focus on studies and hobbies. Society
certainly must not be so solicitous of such “feelings” as
to affirm and encourage them. Encouraging students
to believe the lie that they can change sex only
worsens the problem the student is experiencing.
The use of dangerous hormone therapy or surgery
for minors is nothing short of child abuse and should
not be permitted. Certainly the state has no authority
to tell parents that their children must accept
therapies to change their sex.5 Find a way to adjust to
your being a girl, because you cannot change it — just
like you cannot be taller just because you want to be.
Moreover, there is a spiritual component to this
understanding, and it is revealed in Holy Writ. God
chose your sex, and God does not make mistakes.6 God
created you as an individual. Sex is a powerful force
in life, and that is no surprise to God, as he created
that drive as well. But we live in a fallen world. Even
if you were a victim of sexual abuse, that abuse is part
of your history, but it does not define you. Even if you

5

“Father faces arrest and jail time for trying to stop doctors from
transitioning his middle school daughter to a boy,” The Gateway
Pundit (Mar. 13, 2021).
6

See Psalm 139:13-14, 16 (NIV).

16
have strong “feelings,” you cannot yield to act on all of
them. Self-control is essential to live a successful life.
Lastly, each young person has a sense of modesty,
which mothers particularly understand.7
The
responsibility of parents and school officials is to
respect and protect that modesty. In recent years, it
seems that our elitist influencers, and many in public
education efforts, seek to make children immodest,
sexualizing children rather than protecting them,
making them more likely to be exploited by adults —
even by teachers.8 “Childhood used to be a time of
innocence. But as our culture has become more and
more sexualized, children have become the casualties
of adult exploitation.” [F. Kao and A. Jones, “We
Must Fight the Sexualization of Children by Adults,”
Heritage Foundation (Oct. 5, 2019) (emphasis added).]

7

“When Do Children Feel Modesty?” You Are Mom (Mar. 15,
2019) (“Children feel modesty by age four. They start to
experience shame, and this mixes with their desire for autonomy.
In addition, they don’t want strangers to look at them. Also, they
don’t like physical exams or questions about their bodies.”).

8

See B. Palmer, “How many kids are sexually abused by their
Teachers: Probably millions,” Slate (Feb. 8, 2012).

17
B. Addressing
Newspeak.

Transgenderism

Using

Now, how would the above “plain speak”
arguments be made using Newspeak?9 Well, they can’t
be made. The Fourth Circuit opinion appears to arise
from the following presuppositions that defy rebuttal.
1. A biological female who identifies as a male is
a male born into a female’s body. (The adjective
“biological” must always be used before male and
female when referring to this outmoded, artificial
construct of society.)
2. You can choose your sex gender, and change
sexes genders. (Note: remember never to argue using
the word sex, because it is so clearly false that you can

9

Leading the way in developing transgender Newspeak are the
evolving views of the American Psychiatric Association relied on
by the Fourth Circuit. It recently issued a statement explaining
how the terminology in that organization’s own Diagnostic and
Statistical Manual of Mental Disorders has evolved over the past
four decades.
[T]he first two editions of DSM contained no
mention of gender identity. It was not until 1980
with the publication of DSM–III that the
diagnosis “transsexualism” first appeared....
With the release of DSM–IV in 1994,
“transsexualism” was replaced with “gender
identity disorder in adults and adolescence” in
an effort to reduce stigma.... With the publication
of DSM–5 in 2013, “gender identity disorder” was
eliminated and replaced with “gender
dysphoria.” [American Psychiatric Association,
“Gender Dysphoria Diagnosis.” (emphasis added).]

18
change your sex, so we will substitute “gender” for
“sex.” It doesn’t matter that gender just yesterday was
thought of as being short for “grammatical gender,”
which is a linguistic term by which nouns in several
languages were classified as masculine, feminine, or
neuter.10)
3. Persons are not limited to the “binary” options
of being males and females. Gender is just arbitrarily
assigned at birth. And, there are an infinite number
of choices:
Agender, Gender Nonconforming,
Cisgender, Transgender, Genderqueer, Gender fluid,
Non-Binary, Intersex.11
(No doubt this Court
eventually will be asked to decide if each “gender”
deserves its own bathroom.)
4. Each person — even though a child or
adolescent — must have the right to act on their
feelings, no matter what they are, and no matter how
the world must bend to accommodate how they feel.
Opposing views, Biblical counseling, and other
counseling designed to have the person live at peace
with his/her/etc. gender are “ugly.”

10

The new, expansive use of “gender” is reminiscent of Lewis
Carroll’s telling of a conversation between Humpty Dumpty and
Alice: “When I use a word,” ... “it means just what I choose it to
mean—neither more nor less.” ... “When I make a word do a lot of
work like that,” said Humpty Dumpty, “I always pay it extra.” If
that rule were followed, the word “gender” would be very well paid
indeed.
11

See S. Saint Thomas and T. Andrews, “12 Gender-Related
Terms You Should Know and Understand: Consider this your
cheat sheet,” Cosmopolitan (Oct. 29, 2020).

19
C. Judicial Law Making.
Once the Fourth Circuit decided the issue
presented, it did not just resolve a “case” or
“controversy” between the parties, but it, in effect,
enacted a law which will govern all government
schools, and possibly private and sectarian schools as
well, at least in Virginia, West Virginia, Maryland,
North Carolina, and South Carolina. And, other courts
no doubt will not limit its application to the facts of
this case. It will require a school to allow a girl to use
a boy’s locker room and showers as well as restrooms.
And, it will require that a boy be allowed to use a girl’s
bathroom, locker room, and showers. Additionally, it
will not require any particular proof of cross-sex
change, such as seeking counseling, undergoing
hormone therapy, or undergoing surgical procedures.
It likely will not require the change of sex on a birth
certificate or a driver’s license, or any period over
which the person’s “feelings” are manifested, or
preventing a student from exhibiting “gender fluidity”
in switching back and forth, depending on which
shower the student wants to use that day.
George Orwell’s essay quoted supra contended
that, “political speech and writing are largely the
defense of the indefensible.... Thus political language
has to consist largely of euphemism, question-begging
and sheer cloudy vagueness.” A judicial decision that
equates “sex” with “gender” that applies legal
principles based on subjective feelings, that affirms for
America the notion that one can change one’s sex, and
that directs that the interests of all other persons be

20
subordinated to one person’s dysphoria, cannot be
allowed to stand.
III. THE FOURTH CIRCUIT’S DECISION
OPENED THE DOOR TO SOCIETAL CHAOS
AND HARM TO YOUNG PEOPLE.
A. Sex-Rights Litigation Has Proceeded
Down a Slippery Slope.
As petitioners point out, this Court has already
recognized once that the Title IX issue presented in
this case warrants review. Pet. Cert. at 15-16. These
amici agree that this petition poses an important
question of federal law that has not been, but should
be, settled by this Court. See Supreme Court Rule 10.
But in addition, the importance of reviewing the
Fourth Circuit’s decision is enhanced by an
understanding of how sex-based rights jurisprudence
has developed in recent years.
Sex rights activists have a long history of pursuing
revolutionary change through a series of gradual,
incremental “reforms,” all the while hiding their
ultimate, more radical objectives. In the 1980s, the
only request made by these activists was to
decriminalize homosexual conduct — to take the state
out of the bedroom. Such laws against sodomy were
rarely enforced, but stood as a moral statement of the
society against what Blackstone called “crimes against
nature,” Blackstone, IV Commentaries on the Laws of
England, chapter 15. Indeed, this Court upheld the
constitutionality of a Georgia state law criminalizing
homosexual sodomy based on Justice White’s

21
reasonable conclusion that there was no “fundamental
right to engage in homosexual sodomy.” Bowers v.
Hardwick, 478 U.S. 186, 191 (1986). However, the
Bowers precedent was swept away not many years
later in Lawrence v. Texas, 539 U.S. 558 (2003) in a
decision which relied heavily on social science studies
who embraced the homosexual rights cause.
Although Courts never go back to see if they had
been fooled by litigants, there is good reason to believe
that Lawrence v. Texas was a contrived case, staged so
it could reach this Court to impose its will on the
nation. See J. Law, Sex Appealed: Was the U.S.
Supreme Court Fooled? (Eakin Press: 2005). Also,
Norma McCorvey admitted that a fraud upon the
Court had been committed in Roe v. Wade, 410 U.S.
113 (1973).
See N. McCorvey, I Am Roe
(HarperCollins: 1994).
During debates over same-sex “civil unions,”
LGBTQ activists insisted that such unions would not
necessarily lead to legalized homosexual “marriage,”
but they did when the Biblical definition of marriage
(see, e.g., Genesis 2:24) was overturned by this Court in
Obergefell v. Hodges, 576 U.S. 644 (2015).
During debates over same-sex “marriage,” gay
advocates and their allies rejected the “slippery slope”
arguments of conservatives who said that the same
argument used in favor of same-sex “marriages” and
unions would be used to legalize “multiple-partner
unions.” Just a few short years later, the city of
Somerville, Massachusetts acted to recognize
“polyamorous” relationships, “broaden[ing] the

22
definition of domestic partnership to include
relationships between three or more adults.” E. Barry,
“A Massachusetts City Decides to Recognize
Polyamorous Relationships,” New York Times (July 1,
2020). With the successful “gay” revolution as their
model, activists touting “sexual freedom” and “family
diversity” are pushing for “social acceptance for
polyamorous relationships.”
E. Sheff, Ph.D.,
“Polyamory Advocacy: Activists and Organizations
Dedicated to Advocating for Polyamory,” Psychology
Today (Mar. 21, 2016). Just last month, Hollywood, as
a trusted ally of the cultural left, joined the push. See
B. Lang, “Queer Polyamorous Love Story ‘Ma Belle,
My Beauty’ Sells to Good Deed (Exclusive),” Variety
(Feb. 18, 2021). The notorious North American
Man/Boy Love Association (“NAMBLA”) continues to
operate: “NAMBLA’s goal is to end the extreme
oppression of men and boys in mutually consensual
relationships .... NAMBLA is strongly opposed to
age-of-consent laws and all other restrictions which
deny men and boys the full enjoyment of their bodies
and control over their own lives.” See “Who We Are,”
NAMBLA (2011).
Even if “slippery slope” arguments in court are
viewed as fanciful, the Fourth Circuit’s decision, if
allowed to stand, will strike another blow at
conventional, Biblical morality in the culture. It will
sanction the very unscientific notion that people can
change their sex, and that this is the road to
happiness. It will cause many parents, school officials,
and counselors to encourage sex changes using
dangerous and untested drugs and irreversible
surgeries. It will take young people and render them

23
sterile in pursuit of an impossibility. In the historic
battle between Neopagan and Christian Culture, it
will be a victory for the former and a defeat for the
latter. See generally M. Stanton Evans, The Theme Is
Freedom (Regnery Publishing: 1994) at 113-130. And
the Courts, increasingly, will be viewed by many
Americans as a corrosive influence on society,
constitutionalizing public policy issues to transform
this into a thoroughly secular nation, putting us at
risk. See Thomas Jefferson’s warning inscribed on the
wall of the Jefferson Memorial: “Indeed I tremble for
my country when I reflect that God is just: that his
justice cannot sleep for ever.”
B. Sex Change
Dangerous.

Therapies

Are

Highly

Ignored by the court below were the “health risks”
of transsexual surgeries and hormone therapies for
children, including mastectomies to remove a young
woman’s healthy breasts to achieve the flat-chested
look of a man. And yet, such radical procedures are
not only being conducted in leading hospitals on minor
children, but they are also defended fervently by
pro-LGBTQ advocates, who insist that the “rights” and
desires of “trans” minors are preeminent in this
cultural and public policy debate.12 If the fiction of sex

12

Fortunately, in December, the U.K. High Court ruled: “It is
highly unlikely that a child aged 13 or under would be competent
to give consent to the administration of puberty blockers. It is
doubtful that a child aged 14 or 15 could understand and weigh
the long-term risks and consequences of the administration of
puberty blockers.” Bell v. Tavistock, Point 151 (Jan. 12, 2020).

24
change is given encouragement by this Court, it will
share responsibility for the damage inflicted on our
nation’s children, much of which was recently detailed
by Abigail Shrier in Irreversible Damage: The
Transgender Craze Seducing Our Daughters (Regnery
Publishing: 2020).
The following is a sampling of the massive and
often permanent health risks for adolescent and
pre-adolescent children pursuing medically induced
“(trans)gender transitions”:
•

“Testosterone thickens the blood.... There is
some indication that biological women on
these doses of testosterone may have nearly
five times the risk of heart attack than women
have, and two-and-a-half times that of men.”
Irreversible Damage at 169.

•

“Shortly after cross-sex hormones are
introduced, permanent changes result. If a
biological girl regrets her decision and stops
taking testosterone, her extra body and facial
hair will likely remain, as will her clitoral
engorgement, deepened voice, and possibly
even the masculinization of her facial features.
While massive doses of testosterone must be
maintained to continue the full effects of
transition, eliminating testosterone doesn’t
whisk an adolescent back to where she
started.” Irreversible Damage at 170.
“The long-term effects [of “transgender”
testosterone “therapy”] include heightened
rates of diabetes, stroke, blood clots, cancer,

•

25
and, as we’ve seen, heart disease. In general,
mortality risk rises.” Irreversible Damage at
170.
•

“[W]orld-renowned child and adolescent
psychiatrist Christopher Gillberg says he
thinks unproven treatment of
trans-identifying children is ‘possibly one of
the greatest scandals in medical history.’
Professor Gillberg’s neuropsychiatry group at
Sweden’s Gothenburg University ... has called
for an immediate moratorium on the use of
puberty blocker drugs because of their
unknown long-term effects.” J. Van Maren,
“World-renowned child psychiatrist calls trans
treatments ‘possibly one of the greatest
scandals in medical history,’” The Bridgehead
(Sept. 25, 2019).

•

“Currently, there is no conclusive medical
evidence that children who experience gender
incongruence receive long-term benefit from
medical and surgical interventions associated
with ‘gender transition.’... Also, there are
potentially severe long-term safety risks from
pubertal suppression and cross-sex hormone
therapy in children, including infertility,
abnormal bone development, premature
cardiovascular disease and thromboembolic
disease, to name just a few.” Catholic Medical
Association, Letter co-signed by American
College of Pediatricians and Christian Medical
& Dental Association (Mar. 17, 2021).

26
•

The pro-LGBTQ London, U.K.-based Gender
Identity Development Service (“GIDS”) states
in an informational flier: “We do not fully
know how hormone blockers will affect bone
strength, the development of your sexual
organs, body shape or your final adult height.
There could be other long-term effects of
hormone blockers in early puberty that we
don’t yet know about.” (cited in Point 63, Bell
vs. Tavistock High Court decision, Jan. 12,
2020).

•

Plastic surgeon Dr. Patrick Lappert: “I can
reverse masculinizing your nose, I can reverse
masculinizing your jaw; I can reverse
masculinizing your hairline … But I cannot
reverse a mastectomy. All I can do is make
you a new breast mound, but it’s not a breast.
It’s a lump on your chest which looks like a
breast.” Writes Shrier: “The difference
between a healthy organ with biological
capacities—in this case, erotic sensation and
milk production—and a lump of flesh that
resembles it turns out to be pretty significant
to doctors bound by the Hippocratic oath. The
two forms may seem fungible to a layperson.
But according to Dr. Lappert, eliminating
biological capacities merely for the sake of
aesthetics is wrong and—in virtually all other
areas of medicine—strictly verboten.”
Irreversible Damage at 172-73.

27
CONCLUSION
For the reasons stated above, the Petition for a
Writ of Certiorari should be granted.
Respectfully submitted,
JAMES N. CLYMER
CLYMER MUSSER &
SARNO, P.C.
408 West Chestnut St.
Lancaster, PA 17603
Attorney for CLDEF
J. MARK BREWER
BREWER, PRITCHARD
& BUCKLEY, P.C.
770 S. Post Oak Lane
Suite 620
Houston, TX 77056
Attorney for CLDEF

WILLIAM J. OLSON*
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
JOSEPH W. MILLER
LAW OFFICES OF JOSEPH
MILLER, LLC
P.O. Box 83440
Fairbanks, AK 99708
Attorney for RLAC

GARY G. KREEP
STEVEN C. BAILEY
CALIFORNIA
*Counsel of Record
CONSTITUTIONAL RIGHTS
FOUNDATION
March 26, 2021
932 D Street, Suite 2
Ramona, CA 92065
Attorneys for CCRF

